           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     REPRESENTATIVE PAYEES
      RECEIVING BENEFITS FOR
     CHILDREN IN FOSTER CARE


   January 2006     A-13-05-15047




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   January 20, 2006                                                                      Refer To:

To:     Laurie Watkins
        Regional Commissioner
         Philadelphia

From:   Inspector General

Subject: Representative Payees Receiving Benefits for Children in Foster Care (A-13-05-15047)



        OBJECTIVE

        Our objective was to determine whether child beneficiaries and recipients in the
        Baltimore City Department of Social Services’ (BCDSS) foster care program had their
        benefit payments managed by representative payees who were not their foster care
        parents and whether those funds were at risk. During our review, we performed a
        computerized comparison of data provided by BCDSS against data maintained by the
        Social Security Administration (SSA). The comparison was performed for research and
        statistical purposes.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted SSA the authority
        to appoint representative payees to receive and manage these beneficiaries’1 benefit
        payments. A representative payee may be an individual or an organization. SSA
        selects representative payees for Old-Age, Survivors and Disability Insurance
        beneficiaries and Supplemental Security Income recipients when representative payees
        would serve the individual’s best interest.

        The Social Services Administration of the State of Maryland, Department of Human
        Resources, administers social services in each of Maryland’s 23 counties and
        Baltimore City through local departments of social services. The local department of
        social services, such as BCDSS, provides adoption, protective and foster care services
        to children and families with children. Similar to representative payees, BCDSS’ foster
        care program provides for the food, shelter, and clothing needs of children.



        1
         We use the term “beneficiary” to refer to both Old-Age, Survivors and Disability Insurance beneficiaries
        and Supplemental Security Income recipients.
Page 2 – Laurie Watkins

SSA provides local departments of social services on-line access to certain beneficiary
information. The Agency’s State Verification and Exchange System (SVES) enables
these organizations to determine whether individuals are receiving benefit payments
from SSA. Using this information, BCDSS may apply to be the representative payee for
children in its care.

We have performed work regarding representative payees for children in foster care.
Previously, we have reported the results of our work concerning BCDSS as a
representative payee for children in its foster care program. In addition, our Office of
Investigations has conducted investigations of parents who were serving as
representative payees while their children were in foster care.

In our September 2001 audit report, Financial-Related Audit of Baltimore City
Department of Social Services – An Organizational Representative Payee for the Social
Security Administration (A-13-00-10066), we stated BCDSS served as representative
payee for 481 (7 percent) of the approximately 7,200 children in its foster care program.
During the audit, an official stated BCDSS no longer had on-line access to the Agency’s
benefit information through SVES to determine whether a child was receiving SSA
benefits. This occurred because SSA had made security changes to its software.
During our current review, the official informed us BCDSS had access to SVES.

Nationally, our Office of Investigations has completed several investigations of parents
who served as representative payees while their children were in foster care. The
investigations revealed parents misused benefit payments and committed fraud. We
identified four investigations that resulted in arrests and criminal convictions for the
misuse and fraud of over $105,000 in benefit payments during Calendar Year 2004
involving parents serving as representative payees.

One such case showed that, on December 16, 2004, in Salt Lake City, Utah, the
U.S. District Court sentenced a mother to serve 9 months in a community corrections
facility, be subject to 5 years’ supervised release, and pay restitution to SSA in the
amount of $56,016. In July 1997, 1 month after her husband died, the mother filed
multiple applications for survivor’s benefits stating she had custody of her children.
However, the State of Utah had removed the children from her custody and placed them
in foster care for their own safety. Later, SSA awarded the mother, as the
representative payee, the children’s survivor benefit payments. The mother completed
two Representative Payee Reports (RPR) falsely, claiming the children were in her care
at all times. See Appendix C for further information about the investigations of parents
serving as representative payees while their children were in foster care.

For our review, to determine the number of children receiving benefit payments while in
foster care, we obtained a list from BCDSS of 4,448 children in its foster care program
as of January 2004. We compared this information to beneficiary data maintained by
SSA. We found 528 children in BCDSS’ foster care program were receiving benefit
Page 3 – Laurie Watkins

payments. Of the 528 children receiving benefit payments while in foster care,
166 (31 percent) did not have BCDSS as their representative payee. Our review
focused on these 166 foster care children.

The Agency considers various factors in appointing representative payees for children
in foster care. SSA policy instructions indicate that the parent or relative may be chosen
as payee even in a foster care situation.2 SSA acknowledges while many times the
social agency is the best payee choice, that may not always be the case. Among the
factors SSA considers in making its decision about who will be the best payee in these
situations, is why the child was placed in foster care and whether there are family
members who show a strong concern for the child. In addition, the Agency considers
whether the foster care placement is expected to be temporary or long-term.

RESULTS OF REVIEW
We found 166 children in the BCDSS foster care program had their benefit payments
managed by representative payees other than BCDSS. Of the 166 children, 59 had
representative payees that managed about $204,984 annually. These children were in
long-term foster care placement, and the representative payees were not the foster care
parents. For some of these children, we confirmed the representative payees reported
the benefit payments were used for the children’s care and support. However, this
information is not consistent with the data we obtained from BCDSS and SSA’s record
systems.

Representative Payees Were Not Always BCDSS or Foster Care Parents

Of the 166 children, 60 had representative payees who were not their foster care parent
and 54 had representative payees who were their foster care parents. For the
remaining 52 children, BCDSS did not provide us information identifying the foster care
parent. See Chart 1 for the breakout of representative payees.




2
    Program Operations Manual System, GS 01-00-OPB, GN 00502.159.
Page 4 – Laurie Watkins


                    Chart 1: Representative Payees and Foster Care Parents
                                         January 2004

                                          166 Children Had
                                          Payees other than
                                              BCDSS




                  60 Children Had                                  106 Children Had
                 Payees other than                                 Payees who were
                Foster Care Parents                                either the Foster
                                                                    Care Parents or
                                                                       Unknown




     39 Children Had          21 Children Had          54 Children Had          For 52 Children,
     Payees who were          Payees who were          Payees who were           BCDSS did not
       their Parents          Other Individuals        their Foster Care         Provide us the
                                                            Parents            Names of the Foster
                                                                                  Care Parents



BCDSS Did Not Always Apply To Serve As Payee For Children In Its Foster Care
Program

Of the 528 children in BCDSS’ foster care program receiving benefit payments as of
January 2004, BCDSS did not apply to serve as the representative payee for
166 children. A social service agency official stated this occurred because BCDSS was
not aware the children were receiving SSA benefit payments. The official explained
BCDSS did not always use SVES to determine whether children entering foster care
were receiving SSA benefit payments. As a result, BCDSS did not always apply to
serve as the representative payee for these children.

Children Were In Long-Term Foster Care Placements

Of the 60 children served by representative payees who were not their foster care
parents, 59 were in long-term foster care placement. As of January 2004, these
children had been in foster care for an average of 31 months.3 For our analysis, we
defined long-term foster care placement as children who were in the foster care
program for 3 months or longer.4


3
 Median period in foster care was 21 months.
4
 BCDSS defines long-term foster care placement as children who were in the foster care program for
3 months or more. The definition of long-term foster care may vary by State.
Page 5 – Laurie Watkins

See Table 1 for the types of representative payees not serving as foster care parents
and the length of time the children for whom they received benefits were in foster care
placement as of January 2004.

                Table 1: Representative Payees Not Serving as Foster Care Parents
                     for Children in Long-Term Foster Care Placement
                                     as of January 2004


                                                                            Estimated
                     Type of                Number of       Percent          Annual
             Representative Payee            Children                       Amount5
             Parents                            38           64.4           $133,980
             Other Relative                     16           27.1           $ 53,628
             Grandparent                         3            5.1           $ 13,560
             Other than Relative                 2            3.4           $ 3,816
             Total                              59          100.0           $204,984


Representative Payees Report the Use of Benefit Payments

Since the representative payees for at least 59 children were not their foster care
parents and the children were in long-term foster care placement, we are concerned
about whether the benefit payments for these children were used in accordance with
SSA policy, that is, whether payments made to these representative payees were used
for the children’s food, shelter, and clothing needs.

An Agency official reported although representative payees for children “…were not
foster care parents and the children were in long-term foster care placements, the
payees would have accounted for use of benefits by way of the SSA-623/6230
(Representative Payee Report) and any questions about how benefit payments were
reported to have been used would have been handled by SSA's established process for
reviewing the report.”

Representative payees are required to provide SSA an annual RPR accounting for how
benefit payments were spent and how much in benefit payments was conserved. On
January 12, 2005, we requested SSA provide us RPRs for the 166 children in foster
care that did not have BCDSS as their representative payee. We requested RPRs for
the most recent two annual reporting periods. For the 59 children in long-term foster
care placements, representative payees managed about $204,984 annually.

Of the 59 children in long-term foster care placement, we received and reviewed RPRs
covering the benefit payments of 23 children. Representative payees reported the total
amount of benefit payments were used for the care and support of the children. This


5
    Estimated annual amount calculated by multiplying January 2004 actual monthly payment times 12.
Page 6 – Laurie Watkins

information is not consistent with the data we obtained from BCDSS.6 First, the
representative payees were not the foster care parents. Second, a BCDSS official
stated that, generally, representative payees do not provide funds to BCDSS for
children in foster care. The official did not provide any instances where this had
occurred.

CONCLUSION AND RECOMMENDATIONS

During our review, we found 166 children in the BCDSS foster care program had their
benefit payments managed by representative payees other than BCDSS. Of the
166 children, 59 had representative payees who managed about $204,984 annually.
These payees were not the foster care parents and the children were in long-term foster
care placement. Of these 59, for 23 children, we confirmed the representative payees
reported the benefit payments were used for the care and support of the children.

We recommend SSA:

    1. Request BCDSS submit all current foster care children’s Social Security numbers
       through SVES; and apply, when appropriate, to serve as representative payee for
       those children.

    2. Routinely remind BCDSS (and similar institutions) to use SVES to determine
       whether individuals are receiving benefit payments from SSA; and apply, when
       appropriate, to serve as representative payee.

    3. Determine whether an additional outreach effort is needed to increase the use of
       SVES by other social services agencies in the Philadelphia Region.

AGENCY COMMENTS
The Agency agreed with our recommendations. See appendix E for full text of the
Agency’s comments.




                                                      S
                                                      Patrick P. O'Carroll, Jr.




6
  We performed a computerized comparison of data provided by BCDSS against data maintained by
SSA. The comparison was performed for research and statistical purposes. See Appendix B for further
information.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Representative Payee Investigations

APPENDIX E – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
BCDSS    Baltimore City Department of Social Services
MBR      Master Beneficiary Record
RPR      Representative Payee Report
SSA      Social Security Administration
SSR      Supplemental Security Record
SVES     State Verification and Exchange System
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
We obtained a listing of 4,448 children in Baltimore City Department of Social Services’
(BCDSS) foster care program as of January 2004. To accomplish our objectives, we:

•   Reviewed Social Security Administration (SSA) policies and procedures pertaining
    to representative payees.

•   Requested and reviewed a data extract listing of children in BCDSS’ foster care
    program as of January 2004.

•   Requested and reviewed additional information regarding foster care parents of
    children on BCDSS’ January 2004 listing.

•   Obtained and compared Social Security numbers of children in BCDSS’ foster care
    program to SSA’s Master Beneficiary Record (MBR) and Supplemental Security
    Record (SSR).

•   Analyzed applicable information from the MBR and SSR.

•   Identified representative payees serving children as of January 2004 using SSA’s
    Representative Payee System.

•   Determined which children in foster care had a representative payee other than
    BCDSS based on information on the MBR, SSR, and Representative Payee
    System.

•   Requested Representative Payee Reports for 166 children in BCDSS’ foster care
    program.

•   Discussed a computer matching agreement with SSA staff.

To determine the number of children receiving benefit payments while in BCDSS’ foster
care program, we obtained a listing of 4,448 children from BCDSS as of January 2004.
We compared information from this listing to beneficiary data maintained by SSA. We
found 528 children in BCDSS’ foster care program were receiving benefit payments. Of
these 528 children, 166 (31 percent) did not have BCDSS as their representative payee.
Our review focused on these 166 foster care children.




                                           B-1
During our review, we performed a computerized comparison of data provided by
BCDSS against data maintained by SSA. The comparison was performed for research
and statistical purposes. The Privacy Act of 1974, as amended, places limitations on
the use of records. According to the Act, “…no record which is contained in a system of
records may be disclosed to a recipient agency or non-Federal agency for use in a
computer matching program except pursuant to a written agreement between the
source agency and the recipient agency or non-Federal agency....” 1 However, the term
“matching program” does not include “…matches performed to support any research or
statistical project, the specific data of which may not be used to make decisions
concerning the rights, benefits, or privileges of specific individuals.”2 This applies to our
computerized comparison of data, which was performed for research and statistical
purposes only.

We performed our review in Baltimore, Maryland, from March to October 2005. SSA’s
Region III and its downtown Baltimore field office were the components reviewed for this
report. The BCDSS data we analyzed were the property of BCDSS, and we therefore
were not able to assess the reliability of the data. However, we tested SSA data by
comparing certain fields from its payment records and representative payee records to
BCDSS data. We determined the data to be sufficiently reliable to meet the objectives
of our review. We conducted our review in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




1
    5 U.S.C. 552a(o)(1).
2
    5 U.S.C. 552a(a)(8)(B)(ii).


                                             B-2
                                                                        Appendix C

Representative Payee Investigations
We identified four investigations that resulted in arrests and criminal convictions in 2004
involving representative payees for the misuse and fraud of over $105,000 in benefit
payments.

   •   On May 5, 2004, a Hawaii State court sentenced the father of four children to
       5 years in prison and ordered him to pay full restitution to the Social Security
       Administration (SSA) for $9,160. The children’s mother died in an automobile
       accident in March 2001. The father was appointed representative payee for the
       children’s Title II survivor benefit payments in May 2001. In January 2002,
       Hawaii Child Protective Services removed the father’s four minor children from
       his care and placed them in foster care. From January to May 2002, the father
       received and misused his children’s benefit payments.

   •   On October 13, 2004, the U.S. District Court sentenced a mother to be subject to
       3 years’ probation and to pay restitution to SSA for $15,260. The mother’s three
       disabled sons were removed from the home by the State of Michigan and placed
       in foster care because of unsatisfactory living conditions. SSA was not notified of
       this action and the benefit checks continued to be sent to the mother as
       representative payee for her three sons.

   •   On December 15, 2004, a man was arrested in Phoenix, Arizona, for theft of
       Government funds and representative payee misuse. The man received benefit
       payments for two children in foster care in 1999 and 2000, resulting in a loss of
       over $25,000 to the Government.

   •   On December 16, 2004, in Salt Lake City, Utah, the U.S. District Court sentenced
       a mother to serve 9 months in a community corrections facility, be subject to 5
       years’ supervised release, and pay restitution to SSA in the amount of $56,016.
       In July 1997, 1 month after her husband died, the mother filed multiple
       applications for survivor benefits stating she had custody of her children.
       However, the State of Utah had removed the children from her custody and
       placed them in foster care for their own safety. Later, SSA awarded the mother,
       as the representative payee, the children’s survivor benefit payments. The
       mother completed two Representative Payee Reports falsely claiming the
       children were in her care at all times.
                  Appendix D

Agency Comments
                                   SOCIAL SECURITY
MEMORANDUM

Date:      December 23, 2005                                              Refer To:

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Laurie Watkins
           Regional Commissioner

Subject:   Representative Payees Receiving Benefits for Children in Foster Care-Reply


           Thank you for the opportunity to comment on the subject draft report, which is the
           result of an audit you performed at the Baltimore City Department of Social Services
           (BCDSS). We are in agreement with the three recommendations being made. With
           respect to the second and third recommendations, we have determined that all
           states in our region, and the District of Columbia, have agreements with the SSA to
           get information about our beneficiaries through SVES. We will remind other
           governmental agencies in our states with foster-care divisions to use SVES for this
           purpose.

           If you have questions about these comments please feel free to call me at
           (215) 597-5157, your staff may contact Jim Siegel of the Programs Support Team.
           He can be reached at (215) 597-1364.


                                       /s/
                                       Laurie Watkins
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Randy Townsley, Audit Manager, General Management Audit Division
   (410) 966-1039

Acknowledgments

   William Alan Carr, Auditor-in-Charge

   Kimberly Beauchamp, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-13-05-15047.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
